<html>
<title> - NORTHERN ICE: STOPPING METHAMPHETAMINE PRECURSOR CHEMICAL SMUGGLING ACROSS THE U.S.-CANADA BORDER</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]





  NORTHERN ICE: STOPPING METHAMPHETAMINE PRECURSOR CHEMICAL SMUGGLING 
                     ACROSS THE U.S.-CANADA BORDER

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 20, 2004

                               __________

                           Serial No. 108-284

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
99-654                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
PATRICK J. TIBERI, Ohio                          ------
KATHERINE HARRIS, Florida            BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
JOHN R. CARTER, Texas                    Maryland
MARSHA BLACKBURN, Tennessee          ELEANOR HOLMES NORTON, District of 
PATRICK J. TIBERI, Ohio                  Columbia
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
               J. Marc Wheat, Staff Director and Counsel
         Nicolas Coleman, Professional Staff Member and Counsel
                           Malia Holst, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 20, 2004...................................     1
Statement of:
    Azzam, Abraham L., Michigan HIDTA Director; Michael A. 
      Hodzen, Interim Special Agent in Charge, Detroit, MI, 
      Immigration and Customs Enforcement, Department of Homeland 
      Security; John Arvanitis, Assistant Special Agent in 
      Charge, Detroit Division Office, Drug Enforcement 
      Administration; and Kevin Weeks, Field Operations, Detroit 
      Field Office, U.S. Customs and Border Protection, 
      Department of Homeland Security............................    10
Letters, statements, etc., submitted for the record by:
    Arvanitis, John, Assistant Special Agent in Charge, Detroit 
      Division Office, Drug Enforcement Administration, prepared 
      statement of...............................................    47
    Azzam, Abraham L., Michigan HIDTA Director, prepared 
      statement of...............................................    13
    Hodzen, Michael A., Interim Special Agent in Charge, Detroit, 
      MI, Immigration and Customs Enforcement, Department of 
      Homeland Security, prepared statement of...................    40
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     6
    Weeks, Kevin, Field Operations, Detroit Field Office, U.S. 
      Customs and Border Protection, Department of Homeland 
      Security, prepared statement of............................    53

 
  NORTHERN ICE: STOPPING METHAMPHETAMINE PRECURSOR CHEMICAL SMUGGLING 
                     ACROSS THE U.S.-CANADA BORDER

                              ----------                              


                        TUESDAY, APRIL 20, 2004

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                       Detroit, MI.
    The subcommittee met, pursuant to notice, at 9:30 a.m., at 
477 Michigan Avenue, Detroit, MI, Hon. Mark Souder (chairman of 
the subcommittee) presiding.
    Present: Representative Souder.
    Staff present: Nicholas Coleman, professional staff member 
and counsel; and Malia Holst, clerk.
    Mr. Souder. The subcommittee will come to order. Thank you 
all for coming this morning for our hearing on Northern Ice: 
Stopping Methamphetamine Precursor Chemical Smuggling Across 
the U.S.-Canada Border.
    Good morning and thank you all for coming. This hearing 
continues our subcommittee's work on the problem of 
methamphetamine abuse, a problem that is ravaging nearly every 
region of our Nation. It also continues our ongoing study of 
drug trafficking and similar problems facing law enforcement 
agencies at our border and ports of entry and if I can just 
make a couple of comments before going into the thrust of the 
meth statement.
    In my district in Northern Indiana bordering Southern 
Michigan, the meth situation has gotten so bad that many of our 
drug task forces will often--I have a number of counties that 
the drug task force consists of four people, and they'll spend 
the entire morning at one location until the State Police labs, 
like the mobile lab we visited when we were here which was kind 
of an early one that we saw when we were here in Detroit 
earlier, can get there and then they spend the rest of the day 
at another one. They can't even get to the regular drug busts. 
They can't help the DEA with larger trafficking stuff because 
they're so occupied and flooded with a number of meth labs. In 
Indiana we've gone from 90 to 1,200 cleanups in 3 years. The 
fifth largest in the country.
    In Congressman Boozman's District in Northern Arkansas 
which was just featured in People Magazine and we're doing a 
hearing there in the next 60 days and he has spoken at our 
Washington hearing, they're even more flooded.
    There was just an article in the Washington Post a week ago 
that's happening in North Carolina, in Tennessee, eastern 
Kentucky and Indiana. We're having a big problem in northern 
Indiana, but also down in the Hoosier National Forest area 
where we have these heavily rural national forest areas, but 
interestingly even in Indiana, and we saw this first about 5 
years ago in northern California, with these huge superlabs.
    One of the things we've seen in Indiana and what we're 
going to be investigating more today and this is what kind of 
triggered the immediacy of this hearing before we get into some 
of these others and I'll have some questions related to this, 
is that what's in the news almost every night. I did a press 
conference Friday morning with the Indiana State Police to try 
to expand our cleanup process in Indiana. They had between 
midnight and 7 a.m., five additional labs, including an 
explosion. About 60 percent are running in southern Indiana, 
about 40 percent in northern Indiana. But even in Indiana with 
this exponential increase in the meth labs and the first signs 
that it's getting into edges--they had a story Sunday, an 
explosion in a motel. They've had now 10 cases in Indiana of 
labs with problems in--where people rent a room in a hotel, 
Holiday Inn Express was one, a Baymont Inn was one and that 
type of thing that seems to be a growing phenomenon at the 
edges of the cities. In Evansville, Fort Wayne, Southbend, it 
hasn't hit the biggest cities yet. It seems to be heavily a 
rural phenomenon.
    But even in Indiana, what happened is we started with this, 
it's kind of a rural, to some degree motorcycle gang, a rural 
home cooking network much like we've seen in the last views and 
other parts. But then the superlabs start to move in, the price 
drops, the purity soars and 70 percent of our meth in Indiana 
now is from superlabs and it's coming mostly it appears from 
Yakima, Washington and/or up from Texas.
    But interestingly, a lot of it's Mexican and California 
superlabs. But in discussing where the superlabs were coming, 
they said the precursor chemicals were coming across to 
Detroit, heading back over to California and then the superlabs 
were coming back to Indiana. Which is really an interesting 
wrinkle in my State, to the best they can track that, and we're 
seeing this in other States.
    As what we're going to be focusing on in the next number of 
months is a little bit zeroing in on this meth phenomenon which 
has really caught the political attention because it's a new 
drug. Whenever there's a new drug that hits, you've got to get 
control of it at the early stages. Politically in Congress, 
there are more Members signing up for the Meth Caucus right now 
than there are the overall drug caucus. It's one that's grabbed 
their attention because of the news coverage in their areas and 
because it has an immediate danger to the cleanup. Let me tell 
you one other story that we heard in our Indiana hearing.
    In one small town this idiot who was home cooking went to 
this big anhydrous ammonia facility in this small town that 
distributes anhydrous ammonia to a whole wide area around it. 
He was trying to get his stuff out of this big tank and he was 
1\1/2\ screws from exploding this tank which would have 
instantaneously wiped out a town of 700.
    So all of the sudden you're battling not only a drug 
problem, but an explosion problem in the nature of endangering 
everybody around you at a hotel, in a community, and then not 
to mention the environmental cleanup that is incredible. You 
can see this from the coke labs down in South America, in the 
rivers when you fly over in the Amazon Basin. And now to think 
that this is hitting in our own rivers with the home cookers. 
But at the same time, it's not the home cookers we're focused 
on here in this particular hearing because many of them just go 
down to the local grocery store or pharmacy or hardware store 
and pick up the stuff. It's the big superlabs because we have 
one dilemma we're trying to face in this smaller home cooking 
market that's on TV a lot, but our real big problem is people 
get introduced to this stuff, get the kick off of it, and these 
superlabs then come in and blow the market apart. They're the 
big box stores that come in and take out your local 
neighborhood pharmacy once it gets going. And you guys here in 
this area are one of the battleground areas in working with the 
Canadians in how to get control of this stuff because we've 
toughened our U.S. laws. So now we have to get a hold of this 
so we don't have an explosion that 5 years later we look and 
say, hey, this was like crack, why didn't we catch it at the 
first end.
    Meth is among the most powerful and dangerous stimulants 
available. The drug is highly addictive and has multiple side 
effects, including psychotic behavior, physical deterioration, 
and brain damage. Death by overdose is a significant risk. 
Unfortunately, meth is also relatively easy to produce; so-
called meth cooks can create the drug from common household or 
agricultural chemicals and cold medicines containing ephedrine 
and pseudoephedrine. Ephedrine, pseudoephedrine and similar 
chemicals are referred to as meth precursors and these 
precursors are the main subject of our hearing today.
    The most significant source of meth in terms of amount 
produced comes from the so-called superlabs in California, 
northern Mexico. By the end of the 1990's these superlabs 
produced over 70 percent of the Nation's supply of meth. The 
superlabs are operated by large Mexican drug trafficking 
organizations that have used their established distribution and 
supply networks to transport meth throughout the country. These 
organizations have the additional advantage over their smaller 
competitors of being able to import illegally, of course, huge 
quantities of precursor chemicals from Canada.
    The meth traffickers had to start smuggling precursor 
chemicals from Canada because of the much tougher chemical 
diversion penalties enacted by Congress in the 1990's, coupled 
with the effective action by the Drug Enforcement 
Administration, DEA and other law enforcement agencies. Through 
a series of acts, including the Chemical Diversion and 
Trafficking Act of 1988, the Comprehensive Methamphetamine 
Control Act of 1996, the Methamphetamine Penalty Enhancement 
Act of 1998, and the Methamphetamine Anti-Proliferation Act of 
2000, Congress made it far more difficult to obtain large 
quantities of precursor chemicals within the United States. 
Drug companies and pharmacies are now required to register 
large transactions involving cold pills and other precursor 
chemical sources, and retail outlets are prohibited from 
selling anyone multiple packages of decongestants and similar 
medicines. Medicines containing pseudoephedrine are also 
required to be packaged in blister packs, which are more 
difficult for a meth cook to open and dump into a vat than 
larger plastic bottles.
    Unfortunately, Canada did not impose these controls on its 
side of the border, which made it an attractive source of 
supply for meth producers. According to a joint intelligence 
report by DEA and the Royal Canadian Mounted Police, the RCMP, 
the amount of pseudoephedrine imported into Canada rose by 
nearly 500 percent in 1 year from 1999 to 2000 alone. DEA and 
the RCMP believe that a portion of that increase was diverted 
to the illicit precursor chemical market in the United States. 
In the fall 2000, the Canadian Government finally implemented 
new regulations of precursor chemicals, imposing a reporting 
requirement and an end user declaration on large transactions. 
Questions remain, however, about whether these new regulations 
are sufficient to curtail the large-scale diversion and 
smuggling of precursor chemicals from Canada.
    These chemicals are being smuggled, usually by truck, 
across such major border crossings as the Ambassador Bridge 
here in Detroit, and the Blue Water Bridge up in Port Huron. 
DEA and other law enforcement agencies have identified several 
organizations doing this smuggling, many of Middle Eastern 
origin. Identifying and stopping smugglers using these bridges 
presents a serious challenge for law enforcement; Detroit is 
the busiest truck crossing in the United States, while Port 
Huron is the fourth busiest crossing and both crossings are at 
or near the top in volume of passenger traffic as well. It is 
unclear whether U.S. Customs and Border Protection, CBP, which 
conducts the inspections of all trucks and persons entering the 
United States has sufficient resources and facilities to check 
enough vehicles at the Ambassador and Blue Water Bridges for 
drugs and other contraband. The task is further complicated by 
the recent implementation of two fastpass systems that expedite 
border crossings for certain travelers, the NEXUS system for 
passengers, and the Free and Secure Trade, FAST system for 
commercial trucks. These systems have certainly helped speed 
trade and travel across the border, but because they result in 
fewer inspections for participants, they may also create a 
gaping hole in our security network.
    This hearing will give us an opportunity to discuss the 
current status of precursor smuggling here in Michigan, and to 
explore some possible solutions. We are pleased to be joined by 
representatives of four law enforcement agencies responsible 
for stopping precursor chemical and other drug trafficking 
across the Northern border. We first welcome Mr. Abraham L. 
Azzam, Director of the Southeast Michigan High Intensity Drug 
Trafficking Area, HIDTA. HIDTA, a program overseen by the White 
House Office of National Drug Control Policy, seeks to 
coordinate all the anti-narcotics efforts of the Federal, State 
and local law enforcement agencies. We also welcome Mr. Michael 
Hodzen, Interim Special Agent in Charge of the Detroit Office 
of the U.S. Immigration and Customs Enforcement, ICE, which is 
part of the new Department of Homeland Security. Mr. John 
Arvanitis, is that right?
    Mr. Arvanitis. Arvanitis, sir.
    Mr. Souder. Arvanitis, Acting Special Agent in Charge of 
DEA's Detroit Field Division; and Mr. Kevin Weeks, Director of 
Field Operations for the Detroit Field Office of CBP, which is 
also part of the Department of Homeland Security. We thank 
everyone for taking time to be here today, and look forward to 
your testimony.
    I also want to thank particularly Mr. Azzam and Mr. Weeks 
who we met with before. This is the report that I referred to, 
the Federal Law Enforcement at the Border and Ports of Entry 
report. When we were here for several days and we didn't hold a 
hearing at that time, we used a large number of information and 
background in addition to what we learned about the HIDTA when 
we were doing the reauthorization of the ONDCP. This focus on 
the border lays out the system, border system, some of the 
challenges and the need that in order to keep trade moving, we 
need to invest adequate resources. But in moving trade, we 
can't forget that illegal narcotics, illegal immigration, 
terrorism, all those things are very important at the border 
too, not to mention even from a trade standpoint with all the 
illegal smuggling and copyright violations, that we also have 
to make sure we can control trade at the border. We can't just 
in moving trucks across the border forget what we're protecting 
in our national interest in multiple ways.
    One last thing as you are all are pretty familiar, I want 
to make sure the record reflects that part of the challenge 
here involves Canada. Because much of what we do in narcotics 
focuses on the southwest border, but Canada is heavy in meth 
precursors, ecstasy and certain drugs that are produced heavily 
in northwest Europe. All of a sudden Buffalo and Detroit become 
major centers and to some degree upstate New York moving down 
to Boston and New York City, become a different mix in our 
narcotics question.
    We have been over to visit in the Netherlands and also at 
Antwerp and Belgium. And we see some of the huge production of 
these meth precursors and ecstasy move onto the Belgium side in 
addition to the Dutch side, and try to get them to control it 
and then it flows through Canada. Canada isn't a producer of 
most, as I understand it. If there's any information other than 
that, make sure I understand that today too. It isn't the major 
producer of much of these precursors, it's the transfer point 
coming across from Europe as I understand it. I want to make 
sure we get that clear on the record today too.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T9654.001
    
    [GRAPHIC] [TIFF OMITTED] T9654.002
    
    [GRAPHIC] [TIFF OMITTED] T9654.003
    
    [GRAPHIC] [TIFF OMITTED] T9654.004
    
    Mr. Souder. Now, I ask unanimous consent that all Members 
have 5 legislative days to submit written statements and 
questions for the hearing record and that all answers to 
written questions provided by the witnesses also be included in 
the record. Without objection, it's so ordered.
    Second, I ask unanimous consent that all Members present be 
permitted to participate in the hearing. Without objection, 
it's so ordered. That's to cover us in case any Member not on 
the committee comes in.
    I ask unanimous consent that the full statement of each 
witness be put in the record as well as any supporting 
materials that you want to submit.
    Our panel of witnesses is composed of four representatives 
of the Federal Government, Mr. Abraham Azzam of the Southeast 
Michigan HIDTA, Mr. Michael Hodzen of U.S. ICE, Mr. John 
Arvanitis of DEA, Mr. Kevin Weeks of the U.S. Customs Border 
Patrol. It is our standard practice to ask witnesses to testify 
under oath because we're an oversight committee, so I'll ask if 
you'll each stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
answered in the affirmative. So we'll now start with the 
testimony and we'll start with you, Mr. Azzam. Thank you very 
much.

   STATEMENTS OF ABRAHAM L. AZZAM, MICHIGAN HIDTA DIRECTOR; 
 MICHAEL A. HODZEN, INTERIM SPECIAL AGENT IN CHARGE, DETROIT, 
MI, IMMIGRATION AND CUSTOMS ENFORCEMENT, DEPARTMENT OF HOMELAND 
 SECURITY; JOHN ARVANITIS, ASSISTANT SPECIAL AGENT IN CHARGE, 
 DETROIT DIVISION OFFICE, DRUG ENFORCEMENT ADMINISTRATION; AND 
   KEVIN WEEKS, FIELD OPERATIONS, DETROIT FIELD OFFICE, U.S. 
 CUSTOMS AND BORDER PROTECTION, DEPARTMENT OF HOMELAND SECURITY

    Mr. Azzam. Thank you, sir. I might, before I begin, mention 
that in the year 2000 we were given five additional counties 
that we are now called Michigan HIDTA and these additional 
counties include Alleghan and Van Buren in western Michigan, 
Kent County where Grand Rapids is, Kalamazoo County, Genesee 
County, where Flint, MI is, as well as the four original 
counties of Wayne, Oakland, Macomb and Washtenaw. The main 
reason these western counties were added was because of the 
methamphetamine lab problem which was an emerging problem in 
our State back in 1998, 1999 and 2000. Thank you, sir.
    Congressman, thank you for this opportunity to testify. Our 
HIDTA was authorized by the U.S. Congress and began in July 
1997. The Michigan HIDTA Executive Board is the Governing Body. 
This is important to note. And this Executive Board has 
designed a strategy and crafted initiatives to implement the 
strategy. All Michigan HIDTA operations are approved by this 
Executive Board and we function within the Policy Guidelines 
provided by the Office of National Drug Control Policy, as well 
as the agencies involved.
    The voting members of this Executive Board consist of eight 
Federal Agencies. They are the U.S. Attorney, the FBI, DEA, 
Immigration Customs Enforcement, IRS, Transportation Security 
Administration, ATF and the U.S. Marshal. Interestingly on the 
State side, we have eight voting members. State and local 
agencies represented are--the Michigan State Police, the 
Detroit Police Department, which is the largest in our State. 
We have a representative of the Michigan Association of 
Prosecutors, local prosecutors. We have two eastern Michigan 
Sheriffs who vote because of the large population in southeast 
Michigan. One western Michigan Sheriff to represent their 
interest, an eastern and a western Michigan Chief of Police. 
These chiefs represent the many, many Chiefs of Police that we 
have in the area covered. These are voting members. Now we do 
have Ex Officio members and they are the Michigan National 
Guard, the State of Michigan Office of Drug Control Policy, 
that is the Governor's drug czar for our State. We have the 
Michigan Attorney General and we also have a representative of 
a community group whose acronym is MOSES, which stands for 
Metropolitan Organizing Strategy Enabling Strength. And I've 
provided the subcommittee with a written description of our 
HIDTA structure and activity.
    Sir, the most unique aspect of the Michigan HIDTA, as well 
as the 32 other HIDTAs throughout the United States is the 
Investigative Support and Deconfliction Center. We call it the 
ISC. The Michigan HIDTA ISC is a collective of DEA, FBI, 
Immigration and Customs Enforcement, CBP, Customs Border 
Protection, the U.S. Coast Guard, the IRS, the Michigan State 
Police, the Detroit Police, the Wayne County Sheriff and the 
Michigan National Guard. We also have Canada Customs. Two 
analysts are present 2 days each week in our Investigative 
Support Center. All these agencies provide significant 
intelligence resources. For example, DEA has a full group, FBI 
has a full group, ICE and CBP have a full group and there are 
significant other agencies that I mentioned that who have 
personnel there. We also receive frequent visits from the 
Canada Immigration and the Ontario Provincial Police. From time 
to time the RCMP is also present.
    These resources gather, process and disseminate information 
and intelligence between Federal, State and local agencies, as 
well as the Canada Authorities. Now we do that within the 
existing treaties and protocol. Specifically HIDTA hosts the 
IBET, International Border Enforcement Teams and ICAP meetings. 
These analysts are sent to focus on information for the seizure 
of drugs in general and precursor contraband and they are also 
available for post seizure followup. Pseudoephedrine has been a 
primary target of the ICE and CBP and Canadian analysts for 
several years. I believe that the international effort of the 
last 2 years has had a dramatic impact upon the smuggling of 
Pseudoephedrine in our area. It hasn't stopped, but it ceased 
to be so blatant and open. That may be bad. They've gone under.
    The Michigan HIDTA has 19 Initiative Task Forces. Several 
deal with mid- and high-level investigations involving 
pseudoephedrine, methamphetamine, party and rave drugs between 
the United States and Canada. DEA's Group 2 deals with followup 
investigations of precursors as well as rave drugs and BC Bud 
marijuana investigations. Pseudoephedrine continues to be a 
primary target.
    On a local level, the Michigan State Police with HIDTA 
assistance, has a Uniform Division, Motor Carrier operations 
and has conducted training for interdiction of drug contraband 
on our highways, including pseudoephedrine and other 
precursors. The Criminal Investigation Division of the Michigan 
State Police has two HIDTA supported Task Forces dealing with 
methamphetamine and its precursors. These are the small labs 
that you referred to earlier, sir, which incidentally are just 
north of your Indiana counties. The Michigan State Police and 
DEA, with HIDTA support, has trained 140 local officers to be 
Clandestine Laboratory Certified and 60 Certified Site Safety 
Officers to deal with the small methamphetamine labs which are 
so devastating, and also with the precursors associated with 
them.
    Michigan HIDTA support comes in many forms, such as funding 
for overtime for the officers, equipment, training, 
investigative travel and expenses. The Investigative Support 
Center with its uniquely collocated intelligence assets has 
proven to be a valuable coordinating aid to the numerous 
agencies involved in this effort.
    I understand you will receive testimony from DEA, ICE and 
CBP regarding their excellent efforts against the illegal 
smuggling of pseudoephedrine and other drugs. One example is 
Operation Northern Star. It's a classic example of intelligence 
assets working in harmony with enforcement assets to 
successfully conclude an important pseudoephedrine 
investigation. I'm proud to say that the Michigan HIDTA program 
was instrumental.
    That's my testimony, sir, and I wish to thank this 
subcommittee for this opportunity and I'm prepared to answer 
your questions.
    Mr. Souder. Thank you and as I said we'll put the full 
statement and supporting materials in the full record.
    [The prepared statement of Mr. Azzam follows:]

    [GRAPHIC] [TIFF OMITTED] T9654.005
    
    [GRAPHIC] [TIFF OMITTED] T9654.006
    
    [GRAPHIC] [TIFF OMITTED] T9654.007
    
    [GRAPHIC] [TIFF OMITTED] T9654.008
    
    [GRAPHIC] [TIFF OMITTED] T9654.009
    
    [GRAPHIC] [TIFF OMITTED] T9654.010
    
    [GRAPHIC] [TIFF OMITTED] T9654.011
    
    [GRAPHIC] [TIFF OMITTED] T9654.012
    
    [GRAPHIC] [TIFF OMITTED] T9654.013
    
    [GRAPHIC] [TIFF OMITTED] T9654.014
    
    [GRAPHIC] [TIFF OMITTED] T9654.015
    
    [GRAPHIC] [TIFF OMITTED] T9654.016
    
    [GRAPHIC] [TIFF OMITTED] T9654.017
    
    [GRAPHIC] [TIFF OMITTED] T9654.018
    
    [GRAPHIC] [TIFF OMITTED] T9654.019
    
    [GRAPHIC] [TIFF OMITTED] T9654.020
    
    [GRAPHIC] [TIFF OMITTED] T9654.021
    
    [GRAPHIC] [TIFF OMITTED] T9654.022
    
    [GRAPHIC] [TIFF OMITTED] T9654.023
    
    [GRAPHIC] [TIFF OMITTED] T9654.024
    
    [GRAPHIC] [TIFF OMITTED] T9654.025
    
    [GRAPHIC] [TIFF OMITTED] T9654.026
    
    [GRAPHIC] [TIFF OMITTED] T9654.027
    
    [GRAPHIC] [TIFF OMITTED] T9654.028
    
    [GRAPHIC] [TIFF OMITTED] T9654.029
    
    Mr. Souder. Mr. Hodzen.
    Mr. Hodzen. Good morning, Chairman Souder. I'm honored to 
appear before you to discuss the investigative efforts and 
accomplishments of the Department of Homeland Security 
Immigration and Customs Enforcement. Established in March 2003, 
ICE is the Federal Government's newest and the second largest 
investigative agency. Through its legacy components, ICE brings 
to bear significant expertise, broad statutory authorities, and 
innovative investigative techniques. One key mission of ICE is 
to disrupt and dismantle organizations involved in the 
smuggling of narcotics into the United States. Along with our 
counterparts from Customs and Border Protection and in 
conjunction with the Drug Enforcement Administration, we have 
developed a focused and integrated strategy to combat the 
importation of precursor chemicals used to manufacture 
narcotics in the United States, specifically ephedrine and 
pseudoephedrine.
    The production and distribution of methamphetamine in the 
United States is not a new problem. For decades, outlaw 
motorcycle gangs controlled this criminal industry. However, 
the potential for high profit quickly drew others into the 
industry, including narco-traffickers from Mexico. As U.S. law 
enforcement focused its investigative efforts on domestic 
production and diversion, the U.S. Government strengthened 
anti-diversion regulations. As a result, the criminal 
organization sought alternative means to obtain the precursors 
necessary for the production of methamphetamine. Due to the 
geographic proximity and the volume of trade with the United 
States, Canada inadvertently became a primary source of supply 
for these chemicals. Responding to the increase in demand, 
legitimate Canadian industries made available large amounts of 
pseudoephedrine in tablet form. Sold in the domestic Canadian 
market, these tablets were purchased in bulk by criminal 
organizations and subsequently smuggled into the United States.
    Joint investigative efforts by ICE and DEA produced 
valuable intelligence on the structure and methods of operation 
of these criminal organizations. In particular, an analysis of 
seizures and arrests made in 2001 and 2002 identified a 
relationship between the movement of pseudoephedrine from 
Canada and smuggling organizations that were moving the product 
west.
    Between 2001 and 2002, U.S. law enforcement seized more 
than 127 million tablets of pseudoephedrine and ephedrine, 
including one seizure of more than 42 million tablets in 
Detroit, MI and another of more than 21 million tablets in Port 
Huron, MI.
    The continuous pursuit of these organizations, including 
large-scale undercover operations, border interdiction 
activities, controlled deliveries, and the analysis of 
smuggling trends, has significantly disrupted the flow of 
pseudoephedrine from Canada.
    A key component to these investigations was the cooperation 
provided by the Canadian law enforcement authorities, 
especially the assistance provided by the Royal Canadian 
Mounted Police and the Canada Border Service Agency. These 
agencies have continuously supported U.S. efforts through the 
exchange of intelligence and support of undercover 
international smuggling operations. For example, these agencies 
assisted ICE and DEA in Detroit, MI with an undercover 
investigation involving a criminal conspiracy to import 200 
cases of pseudoephedrine.
    In 2003, in support of law enforcement efforts, the 
Canadian government implemented tighter regulations, requiring 
licensing and permits for producers, importers, exporters, and 
wholesalers of ephedrine and pseudoephedrine. Aggressive 
bilateral investigation and enforcement action, combined with 
the implementation of these regulations has led to significant 
results.
    For example, pseudoephedrine and ephedrine seizures from 
Canada spiked to approximately 127 million tablets between 2001 
and 2002. However, after the Canadian Precursor Control 
Regulations were implemented, the number of tablets seized 
decreased to approximately 11 million tablets in 2003. 
Simultaneously, the price of pseudoephedrine on the street 
rose. The decline in seizures and the corresponding rise in 
street prices suggest the relationship in which the United 
States and Canadian efforts are making a difference.
    The combined efforts of ICE, Federal Prosecutors, DEA, CBP 
and our Canadian counterparts appears to have made a marked 
effect on the availability of supply of ephedrine and 
pseudoephedrine, making it more difficult for methamphetamine 
producers to acquire these chemicals. With the continuous 
cooperation of the Canadian Government, the strengthening of 
regulations that govern these chemicals, and working closely 
with our law enforcement counterparts in this shared mission, 
ICE looks forward to an even greater success in fighting the 
growing threat of methamphetamine.
    ICE continues to evolve to match its investigative 
priorities with critical concerns of this Nation. With 
continuous cooperation with our counterparts at Customs and 
Border Protection and proactive undercover investigations and 
intelligence sharing with DEA, we will continue to target the 
vulnerabilities that facilitate illegal activity. In 
conclusion, I would like to thank Chairman Souder and the 
members of the subcommittee for the privilege to testify before 
you today and highlight the investigative efforts and successes 
of ICE, a premier law enforcement agency. It would be my 
pleasure to answer questions you may have.
    Mr. Souder. Thank you very much.
    [The prepared statement of Mr. Hodzen follows:]

    [GRAPHIC] [TIFF OMITTED] T9654.030
    
    [GRAPHIC] [TIFF OMITTED] T9654.031
    
    [GRAPHIC] [TIFF OMITTED] T9654.032
    
    [GRAPHIC] [TIFF OMITTED] T9654.033
    
    [GRAPHIC] [TIFF OMITTED] T9654.034
    
    Mr. Souder. Mr. Arvanitis.
    Mr. Arvanitis. Thank you, sir.
    Good morning, Chairman Souder and distinguished members of 
the subcommittee. It is a pleasure to appear before you today 
to discuss the challenge of stopping methamphetamine precursor 
chemicals being smuggled across the United States and Canadian 
border and the efforts of the Drug Enforcement Administration 
to combat it. My name is John Arvanitis and I'm the Assistant 
Special Agent in charge of the Detroit Field Division. On 
behalf of Administrator Karen P. Tandy and Special Agent in 
Charge, John P. Gilbride, I am particularly pleased to appear 
before you today on this topic to discuss recent law 
enforcement successes that we believe demonstrate how law 
enforcement efforts can significantly impact supply and the 
trafficking of a drug.
    International efforts were undertaken during the mid 1990's 
to control the flow of bulk ephedrine and pseudoephedrine. DEA 
Operations Mountain Express I and II targeted the domestic 
diversion of pseudoephedrine primarily by individuals and 
companies registered by DEA to handle controlled substances and 
chemicals. Operations Mountain Express I and II subsequently 
resulted in the arrest of 189 individuals and the seizure of 
more than 12\1/2\ tons of pseudoephedrine, 83 pounds of 
finished methamphetamine and $11.1 million in U.S. currency. 
With the success of these investigations and enhanced 
regulatory oversight by DEA, methamphetamine producers found it 
increasingly difficult to obtain sufficient quantities of 
pseudoephedrine within our borders. As a result, they turned to 
Canada where pseudoephedrine tablets were available in large 
quantities.
    In response to the change in pseudoephedrine trafficking 
trends, DEA subsequently initiated Operation Mountain Express 
III. This operation concluded with the arrest of over 100 
defendants in January 2002 and caused other Canadian 
pharmaceutical companies to fill the void created by continuing 
to sell huge quantities of pseudoephedrine. DEA subsequently 
initiated Operation Northern Star, as mentioned earlier, 
specifically to combat precursor chemicals moving across the 
United States and Canadian border.
    On April 15, 2003, the DEA, U.S. Immigration and Customs 
Enforcement, Federal Bureau of Investigation, International 
Revenue Service, along with Royal Canadian Mounted Police, 
arrested more than 65 individuals in 10 cities throughout the 
United States and Canada. Approximately 108 million tablets of 
pseudoephedrine were seized during this investigation. This 
quantity of pseudoephedrine could have yielded approximately 
9,000 pounds of methamphetamine, with an estimated street value 
between $36 million and $144 million, depending on purity 
levels.
    Operation Northern Star demonstrated that concentrating 
resources and investigative efforts in a specific geographic 
area of the global chemical trade can make a tangible and 
demonstrable difference. This is best illustrated by the 
precipitous drop in the amount of Canadian pseudoephedrine 
seizures after April 2003. Seizures of pseudoephedrine dropped 
from a high of more than 75 million tablets in 2001 to 
approximately 26 million tablets in 2003, a majority of which 
were confiscated before April of last year.
    United States and Canadian law enforcement measures, along 
with the newly enacted precursor chemical laws in Canada have 
clearly decreased pseudoephedrine availability dramatically. In 
addition, Canadian imports of pseudoephedrine have decreased 
from 511,395 kilograms in 2000 to 84,634 kilograms in 2003. As 
a result, it appears that methamphetamine production is moving 
back to Mexico.
    Although the DEA's concentrated operations have been 
regionally successful, chemical supply shortfalls have quickly 
been filled by other sources from transnational organizations 
using other countries as transit points for importing chemicals 
into our country. Foreign countries that establish and 
implement even basic regulatory controls for precursor 
chemicals provide the DEA with substantial assistance in 
stopping the importation of such chemicals.
    The Canadian Health Ministry recently implemented a 
chemical control system requiring the registration, licensing 
and permits for import and export by Canadian companies, and is 
indicative of how regulatory requirements can be effective. 
While not as rigorous as provisions in the United States, these 
regulations have had a positive effect on the problems 
encountered by our country and have made it more difficult for 
traffickers to obtain chemicals from Canada. Along with the 
improved accuracy of export figures supplied by Canada to the 
DEA, authorities now can monitor the legal trade of precursor 
chemicals between our two nations and help in our combined 
efforts to prevent chemical diversion.
    I would be happy also to answer any questions the 
subcommittee may have of me.
    Mr. Souder. Thank you.
    [The prepared statement of Mr. Arvanitis follows:]

    [GRAPHIC] [TIFF OMITTED] T9654.035
    
    [GRAPHIC] [TIFF OMITTED] T9654.036
    
    [GRAPHIC] [TIFF OMITTED] T9654.037
    
    [GRAPHIC] [TIFF OMITTED] T9654.038
    
    Mr. Souder. Mr. Weeks.
    Mr. Weeks. Thank you and good morning, Chairman Souder. I 
personally would like to thank you for allowing me this 
opportunity to testify regarding the U.S. Customs and Border 
Protection's role in interdicting narcotics at the United 
States and Canadian border.
    The priority mission for CBP is homeland security. Although 
nothing can diminish the importance of detecting and preventing 
terrorists and implements of terrorism from entering the United 
States, CBP also preserves its collective history of protecting 
the homeland by seizing illegal drugs and other contraband at 
the U.S. border, apprehending people who attempt to enter the 
United States illegally and by protecting our agricultural 
interest and the public health from harmful pests and diseases.
    In order to uphold these responsibilities, CBP deploys a 
layered defense that essentially employs enforcement 
strategies, technologies, inspection processes and facilitation 
programs simultaneously.
    For CBP, success begins with our people and our effort to 
achieve one fact at the border. CBP places great importance on 
cultivating a highly skilled work force.
    The National Targeting Center is the hub for CBP targeting 
efforts, setting the standards and defining processes. The NTC 
staff includes personnel with customs, agriculture, immigration 
and Border Patrol law experience, as well as liaison personnel 
from other agencies such as the Transportation Security 
Administration, the U.S. Coast Guard, Immigration and Customs 
Enforcement, the Department of Energy and the Food and Drug 
Administration.
    This collocation of enforcement and regulatory subject 
matter experts allows the NTC to support field programs and 
operations. CBP continues to develop new modules and rule sets 
to further enhance targeting capabilities of the Automated 
Targeting System [ATS]. Although nationally directed, support 
from field locations is critical to the evolution of ATS. Their 
expertise in risks associated with smuggling activity and 
knowledge specific to the Northern Border trade patterns have 
been integrated into ATS targeting rule sets specific to truck 
and rail cargo on the Northern Border. This integration 
significantly enhances the ability of ATS to be used to detect 
unusual shipments that might conceal narcotics or pose threats 
to homeland security.
    Our CBP and Border Patrol officers are also utilizing non-
intrusive inspection and radiation detection technologies. In 
combination with our layered enforcement strategy, these tools 
provide CBP with significant capacity to detect and deter 
nuclear or radiological materials, narcotics and other 
contraband.
    There are currently three large-scale imaging systems and 
44 radiation portal monitors deployed throughout the Detroit 
Field Office area of responsibility.
    Close and constant coordination with our Canadian 
counterparts is the last layer of our defense that I would like 
to discuss. CBP continues to work closely with Canadian law 
enforcement personnel, including the Canada Border Service 
Agency and the Royal Canadian Mounted Police to address the 
mutual threat of narcotics smuggling on our shared border.
    Our Border Patrol agents work side-by-side with Canadian 
law enforcement officers on Integrated Border Enforcement Teams 
and Integrated Marine Enforcement Teams. IBET teams are 
binational law enforcement entities comprised of Federal, State 
and local law enforcement agencies and the RCMP. The teams were 
established to facilitate U.S./Canada law enforcement agency 
involvement in the disruption and dismantling of criminal 
organizations involved in the smuggling of people and 
contraband along the U.S./Canadian border.
    Now I would like to turn to some successes in narcotics 
interdiction that have resulted from our layered approach.
    On March 25, 2004, CBP Officers, with the assistance of 
Canada Border Service Agency Information, initiated an 
inspection that led to the discovery and seizure of 166 kilos 
of marijuana and 10,224 tablets of ecstasy entering the United 
States via a commercial truck trailer. A large-scale imaging 
system confirmed suspicions about anomalous packages commingled 
with a commercial shipment. This success is particularly 
important because it represents the convergence of several 
components of our layered defense; international coordination 
and information sharing, technology and skilled officer 
personnel.
    From April 2001 to May 2003, the Detroit Field Office 
affected seizures of pseudoephedrine totaling over 150 million 
tablets or the equivalent; however, I will only discuss two of 
those seizures this morning. Fifty-seven percent of those 
pseudo seizures have been discovered in commercial vehicles.
    The largest seizure of pseudoephedrine in Michigan occurred 
on April 11, 2001. A tractor-trailer arrived at the Detroit 
Fort Street Cargo facility, where the subject stated he was 
empty. The truck was taken to secondary for further 
examination. Inspectors confirmed that the trailer contained 22 
pallets which amounted to 42 million tablets of 
pseudoephedrine. The subject was arrested for Federal 
prosecution.
    The most recent seizure of pseudoephedrine was in May 2003 
where inspectors in Port Huron seized an estimated 795 tablets 
of a powdered substance that tested positive for 
pseudoephedrine. The subjects and the contraband were turned 
over to ICE agents for Federal prosecution.
    These samples of CBP's interdiction activities along the 
northern border illustrate that CBP continues its narcotics 
interdiction mission while moving rapidly to improve the 
personnel, technologies and partnerships that allow us to meet 
the challenges to the homeland security.
    Thank you again for this opportunity to testify regarding 
our ongoing efforts to interdict narcotics and their precursors 
on the U.S.-Canadian Border. I am happy to answer any questions 
that you may have, Mr. Chairman.
    [The prepared statement of Mr. Weeks follows:]

    [GRAPHIC] [TIFF OMITTED] T9654.039
    
    [GRAPHIC] [TIFF OMITTED] T9654.040
    
    [GRAPHIC] [TIFF OMITTED] T9654.041
    
    [GRAPHIC] [TIFF OMITTED] T9654.042
    
    [GRAPHIC] [TIFF OMITTED] T9654.043
    
    [GRAPHIC] [TIFF OMITTED] T9654.044
    
    [GRAPHIC] [TIFF OMITTED] T9654.045
    
    [GRAPHIC] [TIFF OMITTED] T9654.046
    
    Mr. Souder. Thank you all for your testimony. I'm trying to 
figure out where to start here. Let me ask a couple of basic 
questions before I actually move into some of what we planned 
because I'm trying to sort out the broader picture because the 
presentation that you're seeming to make today doesn't quite 
square with what we were hearing coming in and I want to make 
sure I've got the mix right and don't misunderstand.
    First, everywhere on our north and south border all of our 
agencies deserve tremendous credit for their aggressiveness in 
trying to get at the different problems and we need success 
stories when we're going after it and we can show that we've 
demonstrated success. I don't want to downplay any type of 
success that has been made or movement toward success, but 
we've got to figure out some basic variables and I'm trying to 
figure out how a couple of these things fit.
    My understanding from Mr. Azzam's testimony, actually from 
all of you, is that you are basically feeling successful with 
the possible exception of Mr. Weeks and I wasn't absolutely 
clear. First off, there's been some success, if anybody 
disagrees with any statement say so and I can clarify.
    There's been some success due to the new laws in Canada on 
meth precursors.
    Mr. Weeks. Well, Mr. Chairman, I think the collective 
efforts that have been made among these agencies, along with 
the Canadian law that was enacted has had an impact, at least 
from an interdiction standpoint. From my perspective, we have 
not been seeing the kinds of shipments of pseudoephedrine that 
we saw back in early 2003, 2002, 2001.
    As you know, Mr. Chairman, we have been performing many 
more inspections of truck vehicles. Also since your last visit, 
we have actually introduced many more technologies that allows 
us to screen more trucks. Our stats seem to suggest that we are 
discovering more BC bud that's coming through the border than 
any of the other drugs and precursors that we saw earlier, but 
I think that there have been a positive effect concerning the 
law, as well as the efforts that have been employed, both at 
the border and with the investigations.
    Mr. Souder. Mr. Arvanitis, if I can ask you a followup and 
I want to followup on the BC bud question too. You've raised a 
number of other things, so let me first go through some of 
them.
    You said that Canadian imports of pseudoephedrine have 
decreased from 511,000 to 84,000 kilograms from 2000 to 2003 
and specifically you said U.S. law enforcement measures along 
with newly enacted precursor chemical laws in Canada have 
clearly decreased pseudoephedrine availability.
    Are you saying you agree that most of this isn't 
manufactured in Canada, but that Canada is predominantly 
getting it in from the Netherlands and Belgium, is that what 
your understanding is as well?
    Mr. Arvanitis. Yes, sir.
    Mr. Souder. And I haven't heard at any hearing before, have 
you heard whether there's been any decline in the production in 
Belgium and the Netherlands.
    Mr. Arvanitis. No, no, no, sir. I did not mention Belgium 
and the Netherlands.
    Mr. Souder. But the testimony suggested that most of the 
meth precursors that were coming into the United States were 
coming in from Mexico. Are we suggesting that Belgium and 
Netherlands are now shipping around and down under, or that all 
that's being sold in Europe, but we haven't seen a decline 
coming out of Antwerp and Rotterdam. I'm trying to figure out 
where it's going if it's not coming to Canada.
    Mr. Arvanitis. We know, sir, that in calendar year 2003, 85 
shipments totaling approximately 420 million tablets of 
pseudoephedrine were shipped from the Far East to fictitious 
companies in Mexico. We also know that a trend is beginning to 
become prevalent to DEA that there are other countries from 
that hemisphere that are also shipping directly back to Mexico 
bulk quantities of pseudoephedrine indicative of the Mexicans 
in and of themselves creating superlabs that produce 
methamphetamine and then import it into the United States along 
the southwest border.
    Recent increases in border seizures of large 
methamphetamine is indicative of that trend.
    Mr. Souder. And because I am such a strong ally of each of 
your agencies, it's hard for me to ask some of the tough 
questions, but this is an oversight committee and I need to ask 
some of the tough questions. It has been very disturbing as 
we're in Iraq and Afghanistan to find out just how difficult it 
is in your life to sort through sourcing and identification. 
One thing I'm still kind of reeling from which is a very 
critical variable that we're working through right now is that 
in our most sophisticated labs, for example, in New York City 
where we test the drugs to determine origin, then in reality we 
can't tell for sure. As I understand it, this is in layman's 
terms, what's Colombian, what's Afghan heroin because the poppy 
doesn't show. What it is is the process. The Colombians use 
certain kinds of processes and the Afghans use certain kinds of 
processes.
    But if Colombian processes are exported into another 
country, the mark on the heroin coming in, it might be 
Colombian, but it might be Afghan heroin. And what I'm trying 
to sort out here underneath this, first off in the 
pseudoephedrine that comes in, is can we tell when you get the 
pseudoephedrine, are there marks, are they labeled by a 
company, are we confident of what is Asian, what is Mexican, 
what is coming through Rotterdam, how definitive is it? You're 
just doing the best you can tracing back the trail.
    Mr. Arvanitis. To answer your question, sir, I can't answer 
that specific question, but that I do know that in large 
shipments that are in bottled pseudoephedrine, there is a batch 
number and a case number that may potentially be able to lead 
investigative efforts to tracking the origin of that 
pseudoephedrine. But I can make sure that you get the answer 
for your committee.
    Mr. Souder. Because ecstasy pills are often marked.
    Mr. Arvanitis. Right.
    Mr. Souder. And so are other types of pills. I think that 
because some of my questions are going to wind up national, I'm 
going to leave the record open for 2 weeks to get any 
supplementary testimony that seems to elaborate from a Federal 
perspective on some of the questions I ask here. I've got to 
get what you said today in context because what I'm really 
trying to establish here is even just south of here the meth 
problem is increasing.
    If we seize the precursors, we need to figure out where 
precisely the precursors are coming in and what's happening to 
what's coming out of those huge factories in Belgium and the 
Netherlands and where they're being absorbed, or are they going 
across the other direction. We'll sort through and get some 
kind of international tracking there. My next question is it's 
based on two assumptions. If I understand Mr. Weeks point and 
your testimony is that Mr. Azzam said you've broken through 
these two big cases which alone constituted almost 40 percent 
of the meth precursors that you had confiscated in Detroit in 
the last round, in what, was it 2002 and 2003, broken the back 
of some of the major organizations, or at least got them. That 
is because of increased surges in technology at the Ambassador 
Bridge and Windsor Tunnel, also Port Huron?
    Mr. Weeks. And Port Huron.
    Mr. Souder. That you believe you're actually searching more 
than you were before, so it's not that you decline in searches 
but that you broke the back of the organizations. You're 
searching more and you're not finding things as much and that's 
led you to conclude that at those three crossings, at least, 
that there's been a decline, or has that led you to conclude 
that there's been a decline in Canada as a whole.
    Mr. Azzam. Congressman, from my perspective I think what 
we're experiencing is the classic displacement phenomenon of 
any drug when efforts are placed and pressure is put upon the 
traffic, no matter what traffic it is, it displaces and goes 
somewhere else. The activity of CBP and the investigative 
agencies, so interdiction plus investigation, has made an 
impact. What I think is happening is that they have gone to 
other methods.
    For example, it's quite easy to ship from Europe or the Far 
East to South America or the Caribbean or Mexico, very simple. 
Very simple. And if that's the easiest course, that's what the 
displacement factor does. They'll do it that way. I think there 
still is activity on pseudoephedrine, I think from some 
indicators that it's existing stocks that were in Canada. The 
pressure that the Canadians have put on has caused also some 
concern among the traffickers.
    Now also keep in mind that the Middle Eastern community was 
the one who started the pseudoephedrine traffic and this area 
has the largest Middle Eastern community in the area. If you 
draw a 50-mile radius from Detroit, which would include Canada, 
you'd have the largest population. They also have contacts in 
other parts of the world. Canada is active, Mexico has a large 
Middle Eastern population, the Caribbean has a large Middle 
Eastern population. Europe has a large Middle Eastern 
population. These people have their connections, their family 
ties as well as criminal ties.
    I think it's just a displacement factor myself.
    Mr. Souder. By displacement you mean they're now moving 
other narcotics, or they're out of the narcotics business and 
moving other illegal goods.
    Mr. Azzam. No. I think what they've done is gone to other 
trafficking routes.
    Mr. Souder. Other routes.
    Mr. Azzam. Yes, sir.
    Mr. Souder. So it's a route displacement to run a drug.
    Mr. Azzam. It's not easy to come across Detroit and at Port 
Huron any more. It's not easy at all. I think there was some 
little activity further up north and now I believe it's moving 
to western Canada toward Vancouver and we've heard reports of 
stocks in different parts of central Canada and western Canada.
    So the border's a little easier there than it is here.
    Mr. Souder. Now let me move just to kind of do one more 
check. Do you see, other than the small home cookers which are 
a whole different market because we can't really reach those 
with what we're doing at the border because they're not buying 
meth precursors in huge quantity. We might deal with the 
pharmacies that they get the stuff from and that kind of thing, 
but other than home cooking, has there been any kind of 
dramatic rises in the Michigan HIDTA in meth use? I mean, it's 
still not the drug of choice. The question is are you seeing a 
spike or does it seem to be turning down now?
    Mr. Azzam. Well, it depends on what part of the State 
you're in. I believe DEA has a better answer than I would have, 
sir.
    Mr. Souder. OK.
    Mr. Arvanitis. Mr. Chairman, I'll address that issue. 
Recently we've seen an increase in methamphetamine 
investigations, one which I will speak to was a recent seizure 
of approximately one pound of methamphetamine that was to be 
distributed in the metro Detroit area. Two individuals were 
arrested. Based on intelligence, we believe that the phenomenon 
is coming east toward the metro Detroit area and it's only a 
matter of time before methamphetamine use is seen here in the 
community.
    I would also like to address your prior question to the 
extent that, you know, DEA and ICE have an outstanding working 
relationship with our colleagues across the way in Canada, in 
Windsor. I frequently interact with my RCMP counterparts there. 
There is an informal sharing of intelligence as it relates to 
investigations that potentially could come into the metro 
Detroit area for potential distribution to other, you know, 
core cities within the United States to include 
pseudoephedrine, BC Bud, any of the contraband that's being, 
you know, imported into Canada eventually for distribution into 
the United States.
    I'd also like to add that DEA recognizes the sovereignty of 
Canada. It's not DEA's policy to impose our will on any 
sovereign nation, however, that a strong chemical control 
program must also have a strong regulatory and enforcement 
component. Those two aspects working hand in hand together with 
one another will result in a successful destruction and 
dismantling of, you know, significant organizations importing 
pseudoephedrine into Canada for eventual importation into the 
United States and eventually getting it to the Mexican 
superlabs on the west coast.
    Mr. Souder. Now, I think I should say as well we've been 
very pleased with the RCMP cooperation, but I don't think we 
have to say what our opinion necessarily is of inside Canada, 
which is a sovereign nation, and it can make these decisions. 
RCMP has been very critical themselves of their current 
government at this point and their willingness to enforce and 
control a lot of these things. They're very frustrated in their 
court process, they're very frustrated with some of their 
political leaders and they've even had their law enforcement 
prosecutors across the country right now objecting to their 
national policy, so it's not all sweetness and light on the 
other side of the border. They're having a big internal debate 
there, where we have a concern about our sovereignty and 
protecting the United States is what we do at our border and 
how we deal with that.
    Now let me see if I can still distill fundamentally what 
you're saying. You believe that much like the phenomenon that I 
was describing in Indiana, that in this case you're looking 
at--that the meth phenomenon started in the home cooker labs to 
a large degree in western Michigan, started to move in 
typically to cities of about 40,000, then into places like 
Kalamazoo, to some degree, and then you start seeing it move 
toward the larger cities in the State.
    Mr. Arvanitis. Yes, sir.
    Mr. Souder. And that when it moves to the larger cities in 
the State, it's not so much a home cooker phenomenon, it is a 
large organization, trafficking organizations move in, realize 
they have a new drug of choice so to speak?
    Mr. Arvanitis. Yes, sir.
    Mr. Souder. And that in that drug of choice that's coming 
in, you don't believe that the system that's hitting Michigan 
is coming with precursors that are crossing at Michigan at this 
point and going the other direction. You believe it's coming up 
predominantly from west southwest, or do you see some of this 
coming Miami and through the Caribbean and up?
    Mr. Arvanitis. No, sir. We only saw that in that one 
specific case that I referenced to you and it was coming from 
the western part of the State to the metro Detroit area.
    Mr. Souder. Are you confident that when they see the 
pressure at Detroit, they don't move up to Sault Ste. Marie and 
come down that way.
    Mr. Arvanitis. I cannot address that answer for you, sir, 
at this time.
    Mr. Souder. Has anybody ever spot-checked?
    Mr. Weeks. We have been employing, as I mentioned in my 
earlier remarks, more inspections up in Sault Ste. Marie 
because of the remote location, you know, it would certainly be 
a question in our minds as to whether or not that kind of route 
would be a preferred route. But we have worked closely with our 
Canadian counterparts up in the Sault with respect to sharing 
Intel and doing special operations where we are examining 
commercial vehicles more intensely. That's certainly not the 
kind of volume as we experience in Port Huron and in Detroit, 
but based on what we have examined and inspected in the Sault, 
we have not seen any evidence that is a route that they're 
using.
    Mr. Souder. And it's not attractive for moving large 
quantities. I mean we had the famous bomber who moved all the 
way across and came down over at Port Angeles, but the Canadian 
side really doesn't lend itself to huge trucking shipments 
going all across on the Canadian side of the border and trying 
to come down far west.
    Did you have anything you wanted to add to that.
    Mr. Arvanitis. No, sir.
    Mr. Souder. That while we're still in kind of the generic 
overview, you mentioned BC Bud. Is BC Bud coming across from 
Vancouver, or are you talking about Quebec Gold or just that 
type of hydroponic marijuana.
    Mr. Weeks. I can't address the actual origin but because of 
the THC content. It's been tested and, you know, it has the 
characteristics of BC Bud and we have seen a rise in the number 
of discoveries of seizures over the past 3 fiscal years and, in 
fact, we're going to, at least I'm projecting that we'll have 
more seizures poundage-wise this fiscal year than we've had in 
the past and again that's certainly a result of the number of 
stepped up inspections and screenings with the large x-ray 
imaging system that has been able to at least display anomalies 
that would show up with what would seem would be legitimate 
commercial shipments. And because of those kinds of 
capabilities that we now have that we didn't have years ago, 
we're making those kinds of discoveries in large quantities. So 
we still run into some of the personal use in the passenger 
vehicles and to some extent smaller quantities in those kinds 
of vehicles, but there's now commingling of large BC Bud 
shipments in commercial loads. Those kinds of discoveries are 
now being made and we see a growth in that area and so I make 
that comparison in terms of a rise in the BC Bud seizures 
versus the decline fairly rapidly in the pseudoephedrine area.
    Mr. Arvanitis. Also, Congressman, DEA, I'd like to add, has 
an outstanding working relationship with all aspects of ICE 
here in the Detroit area. Frequently the border seizures that 
do actually take place, coordinated efforts between the 
agencies, as well as other State and local entities within 
Michigan, as well as outside of Michigan are utilized to 
conduct controlled deliveries and attempt also to disrupt and 
dismantle organizations from point of origin all the way to 
distribution, as well as subsequent seizure of their illicit 
gains from their drug trafficking activities.
    Mr. Souder. I want to go back to another question with Mr. 
Azzam.
    Mr. Azzam. Yes, sir.
    Mr. Souder. In the organizations that you were discussing, 
and you said you believe they may have switched their modes of 
transportation--or where they come in with their loads. Have 
you seen the Middle Eastern organizations interconnecting with 
the Hispanic organizations, Mexican or Colombian.
    Mr. Azzam. Well, that phenomenon I think was always 
prevalent in the cocaine traffic and heroin traffic. The 
transition is not going to be that difficult, but what we have 
seen is that in western Michigan we have a large migrant worker 
population because of the agricultural nature of that part of 
the State and hidden within that group are known traffickers 
that already have established routes.
    For example, Mexican marijuana that comes to Michigan comes 
that way and it's very simple. Once the use is established for 
methamphetamine for them to bring up meth from the superlabs, 
that's a very simple thing. That's not the Middle Eastern 
population. The Middle Eastern population does have the 
connections in California, as well as Mexico to somehow arrange 
for pseudoephedrine, no matter if it is displaced out of 
Michigan.
    Mr. Souder. So, in other words, they may not be bringing it 
in to this State at all, but they're based here arranging a 
shipment to come into one of the Caribbean nations from western 
Europe theoretically.
    Mr. Azzam. Could be, very easy.
    Mr. Souder. To move across?
    Mr. Azzam. They did it with heroin, they did it with 
cocaine and they can do it with pseudoephedrine.
    Mr. Arvanitis. I think you saw that as an underlying theme 
in Operations Mountain Express and in Northern Star that there 
was a relationship between the Middle Eastern brokers, if you 
want to call them that and the Mexican organizational 
operatives on the west coast. You know, like any organization, 
if you have a root, somebody will exploit it. If the Middle 
Eastern community here has the capabilities of funneling 
illicit proceeds back to a point where a trafficking group 
wants to get it, they will find a way to get along with them 
and put their illicit means through there.
    I don't think you can ever say that law enforcement will 
successfully disrupt and dismantle the entire relationship 
between the Middle Easterners and potential Mexican and 
Colombian traffickers operating in this country, sir.
    Mr. Souder. How does meth differ as it moves through 
Michigan than say cocaine and heroin.
    Mr. Arvanitis. As I have earlier stated, we have not seen a 
major movement of meth into the metro Detroit area, except for 
the mom and pop laboratories that we've encountered on the 
western part of the State, so that phenomenon has not come to 
fruition yet here in this State.
    Mr. Souder. So it's less than 8 percent of the drug use 
would you say?
    Mr. Arvanitis. I couldn't give you a figure, sir.
    Mr. Azzam. That's pretty good.
    Mr. Souder. Let me review any of these questions that you 
think definitely need to get into the record, the ones I 
haven't covered.
    I want to make sure because I used to be a staffer. I want 
to make sure that since I've been out doing everything from 
dinners to everything else for the last couple of weeks, that I 
make sure we get into the record some of the key questions 
here.
    Mr. Weeks, in your testimony, 57 percent of the precursor 
seizures have been in commercial vehicles. Does that mean 43 
percent have been in passenger vehicles? What would be the 
other alternative to commercial vehicles?
    Mr. Weeks. Well, again, you know when we talk about 
vehicles, we could actually group into that buses, personally 
owned vehicles. That would be the other category that I did not 
capture in my earlier remarks.
    Mr. Souder. In the passenger vehicles I presume that's not 
the split of volume, and you mentioned personal use just a 
little bit ago. Do you think most of the non-commercial 
vehicles are heavily personal, or many dealerships, or are they 
using multiple wheels.
    Mr. Weeks. Are we talking pseudoephedrine specifically? 
Because I believe my personal use----
    Mr. Souder. I thought that the 57 percent was----
    Mr. Weeks. My personal use remarks----
    Mr. Souder. Precursor chemicals.
    Mr. Weeks [continuing]. Was related to the marijuana 
earlier.
    Mr. Souder. I thought that the 57 percent was precursor.
    Mr. Weeks. The 57 percent is certainly related to pseudo. 
When we were talking about BC Bud, that's when I referenced the 
personal use.
    Mr. Souder. Are 43 percent, you're saying 43 percent of the 
precursor chemicals are coming in non- commercial vehicles?
    Mr. Weeks. Non-commercial vehicles, correct.
    Mr. Souder. So what would be a typical individual bringing 
precursor chemicals? I mean, I don't quite understand.
    Mr. Weeks. Well, they're much smaller. I mean, we can be 
talking 300 or 400 tablets versus literally thousands.
    Mr. Souder. So who would he be heading to distribute to.
    Mr. Weeks. Well, we wouldn't necessarily follow the 
investigative stream lead. We would turn that over to ICE.
    Mr. Souder. OK, well, let me ask Mr. Hodzen then.
    If somebody's, you know, I'm used to thinking in terms of 
this is a major shipment. I know in marijuana you get 
freelancers, you get sometimes--in fact, the last time we were 
here, snared a new vehicle that was coming across because they 
had seen another similar vehicle move through just with a 
similar type story, seized it, the sides of the car were 
packed, so that was probably a multi-run group coming through 
that were going to connect up on the other side.
    In precursor chemicals, how does this work? Are they doing 
a similar type thing, or are we talking freelancers who may be 
dealing with 10 home cookers heading to the west side of 
Michigan, could he be coming across to head down to Fort Wayne? 
We have a big Canadian pharmacy business going.
    Mr. Hodzen. The bulk shipments come in the commercial 
vehicles coming over from Canada due to Northern Star and the 
legislation happening at about the same time. The 
investigations prior to the legislation and through the 
legislation with RCMP, DEA, they had suspects linked to the 
pharmacies right there in Canada, the executives of companies. 
After the arrests and the take downs of that and the 
legislation, we seemed to--the commercial vehicle smuggling of 
pseudo and ephedrine go down to the point where we haven't had 
a commercial load of pseudo or ephedrine come in in 2004 yet 
into the big ports.
    We are seeing more mail. We're seeing more mail come 
through the mail service, DHL, etc. And in those instances, 
they could be coming--we're seeing, like I said, more mail.
    Certain organizations might be taking smaller loads with 
multiple passenger vehicles and making larger loads once in the 
United States because of the crackdown at the border from 
Customs and Border Protection has gotten so--they've gotten so 
good at what they do. Their technology has gotten so good that 
their machinery and their expertise, they're stopping the big 
loads of commercial shipments, so whether it's through the mail 
in small amounts, through passenger vehicles in small amounts, 
they could be gathering it once they're in the United States 
for subsequent transportation to the west.
    Mr. Souder. You said a couple things there that intrigued 
me. Are you doing anything to what's really exploded, I mean 
this is a side subject, but it's not a side subject and I'm 
wondering how you relate to this because it so closely relates 
to pharmaceutical sales.
    In Fort Wayne we're not far from the Canadian border, so 
they're running bus trips up to get every kind of 
pharmaceutical under the sun at these dramatically cheaper 
prices. And I noticed last week for the first time ads up for a 
Canadian pharmacy storefront in Fort Wayne that will sell it 
directly and there are constant ads on television saying order 
directly over the Internet.
    Are we looking at this on precursors and how does this 
interrelate?
    Mr. Hodzen. Absolutely. ICE had an operation where we were 
targeting these companies that were selling over the Internet 
and they were literally using the inbound transportation to get 
it to Mexico. They're coming inbound from Dallas. These 
shipments, some of them were coming from Hong Kong, freight 
shipments to Dallas coming inbound, going through to Texas to 
get into Mexico. Our intelligence and our investigations 
started cracking down on these organizations that were doing 
this primarily through the Internet, so there are ongoing 
investigations related to that.
    Mr. Souder. Do we track smaller scale type operations? Is 
there a monitoring system at all on what's sold through the 
pharmaceutical trade? You probably take a tip that somebody was 
doing it and you'd monitor it, because it would be a great way 
to hide.
    I mean, we just did a hearing a month and a half ago on 
OxyContin in Florida and one of the disturbing things was that 
the Florida newspaper seemed to have more information on, 
bluntly put, seven doctors who were flagrantly abusing the 
OxyContin than the law enforcement agency did. They've been 
scrambling to catch up, and some of them were being monitored, 
but the fact was the newspaper exposed them and then the 
government went after them. Huge amounts of OxyContin was 
available through tracking and are we watching this phenomenon 
because it would be a great way to hide an operation because 
the number of dollars has to be phenomenal right now that are 
moving in the pharmaceuticals.
    Mr. Arvanitis. Yes, sir.
    Mr. Souder. I know the use of illegal drugs is a focus of 
the director right now.
    Mr. Arvanitis. DEA mandates that under its regulatory arm 
that a DEA Form 486 is completed by any importer of any 
Schedule 3, 4, 5 and List 1 chemicals which would include 
precursor chemicals. That DEA Form 486 must be completed 15 
days in advance to the transportation of that shipment. Three 
copies of that form are attached in there. One copy is provided 
to the importer, one copy is provided to DEA Headquarters and 
one copy is provided to ICE. That form would serve as a 
mechanism to be able to track suspicious rogue companies 
importing, you know, whether large or small, frequent 
pseudoephedrine or chemicals into this country for potential 
use in the production of methamphetamine or any other 
contraband.
    Mr. Souder. Let me go back to Mr. Weeks. In the NEXUS 
system, have you had a substantial increase in the number of 
passengers enrolled at Detroit or Port Huron who were under 
NEXUS? Do you have the actual figures.
    Mr. Weeks. I don't have the actual figures, but we have had 
a substantial growth since we launched that program. And as you 
know, I want to address the concerns that you reference in your 
remarks. NEXUS, as you know is you know essentially a program 
designed for commuters that utilize the border crossings on a 
regular basis, although we encourage anyone to apply. And of 
course these are individuals are rated both by the Canadian 
Government and the U.S. Government to ensure there isn't any 
evidence of criminal activity.
    Having said that, you know, it isn't just a free card 
across the border without at times being subject--you're always 
subject to an inspection and, in fact, there is a random factor 
where there is an automatic selection made for individuals that 
are enrolled in the program to be sent to secondary for a 
further and more intensive inspection. There's always a CBP 
officer in the booth that depending upon body language or any 
other anomalies that they may, you know, observe during that 
short interaction, they can override that system and they can 
send those individuals or individual over to secondary for an 
examination.
    So I understand the concern, you know, concerning the 
program, but we have found that we have rarely found a 
violation for those that are in the program. Does it mean that 
an honest Joe couldn't be recruited? No, it means that they can 
be, but it also means that we are randomly and selectively on 
occasion sending those individuals for a more intensive 
examination when they cross.
    Mr. Souder. Has it been the expansion in the fast system as 
well?
    Mr. Weeks. Oh, yes, it has been, although we have noticed 
here it's primarily those suppliers and those companies that 
are engaged with the automotive industry which is the largest 
user of this crossing and most of those companies that are in 
the Fast Free and Secured Trade Program are automotive related, 
although we are certainly trying to extend that to other users.
    Mr. Souder. One of the Canadian centers who was a plant 
manager near Scarborough, Ontario told me my GM plant in Fort 
Wayne that makes the Silverado and one other pickup, it's the 
largest pickup plant in the United States, 100 crossings at 
Detroit in each pickup. Amazing. Partly for union reasons they 
do 60/40 in their trucks which really moves the border.
    We heard at a hearing we did in upstate New York and one in 
Vermont from a panel member of Canadian trucking companies and 
they said they would be amenable, and we heard this also at 
Niagara Falls, Buffalo, to significantly increasing the 
penalties for violations of a fast system or NEXUS system. In 
other words, if you're going to get extra privileges, that 
there's also other extra penalties for abusing those 
privileges.
    Do you support something like that?
    Mr. Weeks. Well, you know, the penalty today, if we found a 
driver, for example, if in fact after the investigation was 
concluded that the driver was the rogue individual in the 
entire process, that person would be excluded from the program. 
That has devastating impact on that driver's ability to 
continue to carry loads for that company or for the trucking 
firm that's involved. I don't know necessarily, you know, that 
a monetary penalty is necessary. Exclusion from the program is 
what we would do today.
    Mr. Souder. We're probably going to look at for the 
companies themselves, not just the exclusion, but, in other 
words, because particularly in tight bridge areas and tunnel 
areas like you have here in Detroit or at Buffalo, Niagara 
Falls, it is a real privilege to be able to do this.
    Mr. Weeks. Sure.
    Mr. Souder. And the other thing as we got into this, have 
you caught anybody on fastpass with materials at this point on 
the fast system?
    Mr. Weeks. I mean, we have found a few, very few 
violations.
    Mr. Souder. How do they play pass the buck? In other words, 
wouldn't it always be fingered to the driver or somebody put 
this in my truck that I didn't know, or often the person that 
has the tractor is different than the company that owns the 
trailer, where was the trailer loaded? How do we--because this 
seems to me the vulnerability in the system.
    Mr. Weeks. One of the activities that CBP takes on is we 
send a cadre of individuals that are familiar with the fast 
security protocols to the company under the threat that if, in 
fact, they don't have the proper controls in place, then they 
could be excluded from the program. That gets their attention 
very quickly. And we've had at least one or two occasions of 
companies that do business through the Michigan crossing of 
that activity and that seems to work very well.
    I mean, certainly there is perhaps finger pointing, you 
know, in any kind of scenario, but we make it clear through a 
post-seizure, a post-discovery basis to ensure that the 
controls are either in place or improved to ensure that they 
don't find themselves in a violative status, you know, in terms 
of subsequent shipments.
    Mr. Souder. So even if it was a driver for a major shipper, 
even if you decided it was the driver, the company would also 
have additional pressures?
    Mr. Weeks. Because we have to look at the entire supply 
chain, you know. We can't necessarily just attribute it to the 
driver. Something happened and we have to review the entire 
supply chain before we are satisfied that there--all those 
vulnerabilities have been addressed.
    Mr. Souder. Do you still use drug sniffing dogs.
    Mr. Weeks. Yes. We have actually increased the number of 
canine teams which would include the narcotics detector dogs.
    Mr. Souder. Has the narcotics detector dog stayed roughly 
the priority? I sit on the Homeland Security Committee too and 
I understand that terrorism and weapons of mass destruction is 
the highest priority, but in Congress we're having a big 
battle. Just like the administration is and 1 day whatever's 
the current crisis is the highest of the day, but then if you 
miss one of the big terrorists, then that was the thing. I 
mean, we're all struggling with this because in the Coast 
Guard, for example, if they miss fisheries, the fishery 
industry collapses. If they're pulling back in to protect the 
Cook Nuclear Plant on western Michigan and two sailboat people 
die and that's on the news that week, then it will be what 
happened to search and rescue. That we have more people dying 
because of narcotics than we do quite frankly from terrorism 
right now and some of us are very concerned that your agents on 
the border can only do so many things simultaneously when you 
have long lines and everybody rustles to get through and 
hollering at you because of trade.
    There is probably not going to be a bomb dog and a drug dog 
at the same vehicle and the question is, are you keeping the 
drug dogs in the rotation or are we going to get squeezed out 
of this mix as we're looking for other things? I just want to 
know are you keeping the number of narcotics dogs roughly the 
same?
    Mr. Weeks. Yes. Our growth have been in the area of the 
bomb detector and chem-bio teams. However, we have the same 
number of canine teams that we've always had. Those dogs are 
actively working at the land border as well as at the Detroit 
Airport and, you know, one of the I think observations that I 
would make is because of our successor in narcotics 
interdiction, that tends to be an elixir for our officers and 
so, you know, it actually balances the scorecard in terms of 
our mission. It is expansive. It's a fairly, you know, 
expansive mission, but, you know, we're not going to compromise 
any of our mission with regard to border enforcement, whether 
it's in the area of homeland security, looking for terrorists 
or weapons or narcotics and I might add pests that may endanger 
our agriculture. One of the benefits of this merger is to have 
a much larger staff that's more sensitive to every one of these 
areas versus the sort of stove piping that we had in the past.
    Mr. Souder. Yeah. I want you really focused on the 
narcotics and the terrorism, but you let one bad soybean in 
here.
    Mr. Weeks. It could have a devastating impact on our 
economy.
    Mr. Souder. I mean that's the challenge we face because all 
politics are local as well as international.
    Mr. Weeks. Sure.
    Mr. Souder. With that, I'm going to leave that subject. 
Anything else you want me to make sure I got on the record? We 
may send you some written questions in addition.
    When you were talking about the violations, what kind of 
violations have you actually found of the NEXUS and the Fast 
Pass?
    Mr. Weeks. I believe they were in the narcotics area and I 
believe it was marijuana that we found.
    Mr. Souder. Large loads?
    Mr. Weeks. No, they weren't large loads.
    Mr. Souder. Anything else any of you want to add?
    Mr. Azzam. There is one thing, Congressman. The HIDTA 
Program not being aligned with the law enforcement agency does 
provide I think an important function. For example, even though 
we only have nine counties in Michigan, our investigative 
support center is a combination of all the agencies here and 
others working together on a daily basis to support the line 
people so that if Chief of Police in Ontonagon, MI needed a 
service, he could call the Center and they would take care of 
it for him.
    The combination of agents that are working there, CBP, ICE, 
DEA, FBI, it's incredible. You can't tell the difference who's 
who when they're working at that Center. That is the one point.
    The second point is on behalf of my colleagues to my left, 
you've mentioned earlier that the emphasis is on the southwest 
border and that's very true. During my long career being a 
native Detroiter and having worked around the world with DEA 
and other law enforcement agencies I've been associated with, 
they do an amazing amount of professional work with a fraction, 
a mere minuscule fraction of the resources devoted to the 
southern border. These agencies are constantly understaffed, 
yet their production has not failed at all. And I'm talking 
about all the ones next to me and others that are not 
represented here and it's been a frustrating factor for me for 
47 years in law enforcement and I know it is for those young 
men next to me who are involved with this activity every day.
    Mr. Souder. Well, let me tell you the dilemma that I have 
as somebody who's a strong supporter of these categories. We've 
tried to steadily increase the dollars, but here's the 
challenge that I have and this is just the way life works on 
this squeaky wheel. We don't have enough funds to cover 
everywhere. What I see is that everybody is working hard. Some 
people, like in any organization are a little more effective 
than other people, even if they have the same resources. I'm 
not going to argue there aren't effectiveness and challenges. 
But I know others have really been trying to move more to the 
north border and as you heard in my opening statement, we've 
had dramatic movement of resources to the north border, partly 
because just like wherever you have large communities of any 
group, and in this case Arab Americans, this is a huge center. 
It means there are more places for bad guys to hide among them, 
just like you mentioned in migrant workers, it's a place for 
bad Hispanics to hide among. And even in my district coming 
down to Angola which butts up to a little high school there in 
a rural area, has 23 languages, including a teacher who speaks 
Farsi because there are so many people of Middle Eastern decent 
there.
    Now the challenge we have is that theoretically it would be 
somewhat easier for terrorists to move in the north though. 
Whether that holds long-term, Bahamas are certainly vulnerable 
right now coming up the east side. So we've moved more to the 
northern border and the question is has there been a drug nexus 
as well. Well, BC Bud is part of it, the high THC marijuana, 
ecstasy and meth precursors. But to some degree, like anything, 
when you're successful what you're in effect telling us today 
is that we've made it difficult in the north border, it's 
pouring in the south border. We've been down there on the south 
border and I'll tell you, they have tons of agents, they're 
stacked up compared to here. But compared to the number of 
people pouring at the border, the Canadians themselves, for all 
my criticism of the Canadian Government, they have much better 
order in their country, so that we don't necessarily have to 
worry on a given case. And we're making progress in Mexico 
under President Fox. I don't want to downgrade the progress and 
I don't want to make any statement too inflammatory. At the 
same time you, generally speaking, don't have to worry about 
which side the RCMP is on when you work on a case jointly with 
them and that it has been a problem for the southwest border.
    When we had our hearings down at Oregon Pithe and over by 
Douglas, I mean, you can just see. I mean, it isn't one, it's 
hundreds of people massed to make a run. All along the border 
you can see the milk containers. If they're black colored, it's 
drugs. If it's clear, it's water and literally they've had to 
close down hiking trails in these national parks because 
they're pouring through. It's not even safe because there are 
shootouts over turf and that kind of stuff and when we're 
dealing with limited funds here, if the meth problem is also 
moving back that direction, we've got to figure out how to be 
efficient in the prioritization.
    Mr. Azzam. Yes, sir.
    Mr. Souder. So I understand your concern as somebody who's 
in the north not the south. Interesting we were having this 
argument in the Homeland Security subcommittee because Dave 
Camp's from Michigan and I'm there, and my closest friend there 
is John Chavy from Arizona and he's hollering at the northern 
guys that have been transferring resources off the south 
border, that the south border's becoming a bigger problem, even 
with meth and if that's the case, then some resources are going 
to have to be reshifted not to the north border but to where 
the problem's increasing.
    To some degree this is a classic example in any type of 
thing. Do a good job, you lose your funds for a while, until it 
gets to be a big problem again and we move it back because the 
last time I checked, nobody wants a tax increase.
    And if I may make a brief political statement, by the time 
John Kerry gets his head pounded in, any tax increase he ever 
proposed it will back people up for a while again. That it's 
just a tough business and I'm one who's advocating more for the 
north. I live in the north. I understand those challenges. I 
was impressed for the first time here that you're being very 
aggressive at it and also the RCMP is. I'm worried at that soft 
drug trend in Canada may expand our problems. That in my 
opinion, Peter Jennings commentary, this kiss-up promotion of 
ecstasy on national television, who knows how this is going to 
ripple through our system because Canada already doesn't 
control that process very well.
    Scott Burns testified at another one of our hearings that 
he didn't believe Canada was enforcing it and the Office of the 
National Drug Policy Control has been up there very concerned 
about their lack of enforcement of the precursor laws, as well 
as their marijuana and ecstasy laws. And if Canada slides 
toward, as they seem to be, not the law enforcement side, but 
the political side, sliding toward the Mexico situation where 
Mexico is at least trying to stand up and battle a little bit. 
So we could see that pressure on the north and those of us in 
the north are raising that concern partly to make sure we don't 
abandon our resources if Canada, in effect, goes soft on 
narcotics here, that we don't suddenly have it hit our borders 
all across the place.
    Mr. Azzam. Well, Congressman, there's no doubt that John 
Walters, the Director of ONDCP and my ultimate boss is very 
critical of the Canadian policies. From a local level what 
we've noticed and what I've heard as reported on the media is 
that some of that laxity over there has become self-
destructive. Apparently there's a greater percentage of drug 
use among the young people on the Windsor side than on the 
Detroit side. I think they will come to the right conclusion 
eventually. If one goes to the Netherlands and walks the 
streets of Amsterdam, they understand what it's like to have 
liberal laws. I won't expand on that. Anyone who has been there 
knows what I'm talking about.
    The other point that I wanted to make, I understand that 
Homeland Security had designated $380 million for intelligence 
fusion and I would suggest that if they were to take a look at 
the 33 HIDTA Investigative Support Centers and see how they're 
structured, that the mechanism and the platform is there. All 
they need to do is expand upon it and probably save a good deal 
of money. All the agencies are there. The resources are there. 
They're working very hard. They're working for their ends.
    HIDTA is, for example here we have 60 people there. Only 
four of them are HIDTA employees. The rest belong to the 
agencies involved. There's some areas there that I never could 
understand why they haven't exploited. We're there, we've been 
there, we've worked out the kinks. You know, it runs pretty 
well. The agencies get along famously. As I say, you couldn't 
tell the difference between an FBI analyst, and a DEA analyst, 
or an ICE analyst, or a CBP analyst.
    Mr. Souder. Let me raise this to you as you look at this. 
It's a little off the meth subject, but it's also kind of 
regionally looking at Detroit. I'm one of the persons who's 
skeptical of this and I'm skeptical for a different reason I've 
expressed my concerns to Mr. Bonner at ICE, and I've expressed 
my concerns multiple times to Mr. Mackin, who's the Drug 
Intelligence Coordinator there and Asa Hutchinson in the whole 
system in the Homeland Security subdivisions, but particularly 
how ICE investigations are handled. And you heard me talking 
about how the border side is handled, which is more Mr. Bonner. 
I support the concept of how we're trying to move. All of us, 
even though I find it infuriating to watch any of the September 
11 hearings, we already knew what our problems are in domestic 
and international merging. It's a question of how we do it. We 
know we're not really fully merged yet in our agencies 
domestically. But here's the challenge that some of us have.
    I'm concerned that a terrorist incident that kills 50 
people will result, or even 200 people will result in a panic 
when 20,000 people a year are dying from narcotics. It will 
result in a panic and diversion of resources, partly 
politically driven, that will pull them off of the drug case. 
So that all of a sudden every dog hitting at the border is a 
bomb or a chemical bio dog, that the officers themselves know 
that if they fail, their careers are over.
    If anything remotely is true to terror--I thought your 
elixir comment was really interesting. Because if you look 365 
days for a terrorist, 24 hours a day for a terrorist and never 
find a terrorist, you become lulled. And unless you have 
something in there, which I thought the elixir was a great 
explanation of that, not to mention that the drug money, as 
we've just seen now with ETA is tied in directly with the 
terrorists and many cases that's child prostitution, selling 
human beings. I mean, how are they going to fund their 
operations?
    But as we look at this homeland security question, I'm 
worried that, for example, we could nail people at the border 
and then all of a sudden the ICE Division, the Investigation 
Division of the Homeland Security gets all diverted over to 
chasing this and won't follow through. We've been trying to 
keep the pressure on, get assurances, but I'm telling you from 
the political side. You get it up to where there's 1,500 dead 
in one incident and you're going to see a movement in pressure 
on your agency that you won't believe from Congress and from 
everybody else that says find these guys, particularly if it 
comes between now and the election.
    And the pressure, which is said as a Republican, the 
pressure is overwhelming and I'm worried that the fusion 
centers could get diverted into this too. On the other hand, 
they've done what you talk about in New York.
    Mr. Azzam. Yes, they have.
    Mr. Souder. In New York. It's an excellent center and New 
York's a primary target and to the degree that what I think 
will happen is that narcotics nexus and the drug nexus are the 
same. It's there. But some of us are very concerned and say 
that if the FBI focuses more directly on the terrorist threat 
and the DEA on the narcotics threat, then Homeland Security has 
to have some of both. We have to have some continuity in this 
and not play what I term little kids playing soccer where 
everybody's running to the ball of the moment and it doesn't 
look like a soccer game, it looks like a little herd going 
through. And we're doing that right now and we've got to be 
careful. We don't even do that in certain drugs from time to 
time.
    Mr. Azzam and then Mr. Hodzen.
    Mr. Azzam. Before you get that, the Investigative Support 
Center next door to you right now is doing both. The FBI 
components are working principally on terrorism. The rest of 
them are working on drugs. And I told the Attorney General of 
the United States this and I'll say it again. There's about 3 
percent difference between a terrorist and a drug trafficker, 3 
percent. And if you're doing a good job in one area, you're 
doing a good job in the other. If you have good anti-narcotic 
procedures in place, good anti- narcotic intelligence, you will 
get involved with terrorism. And if you're doing a good 
terrorism job, there's very little difference between the two, 
in my opinion.
    Go ahead.
    Mr. Hodzen. Since 2001, the big pseudo cases that we've had 
commercially in the Detroit area, Port Huron area, of the 16, 
13 of them were accompanied with controlled deliveries or 
undercover operations related to coming into the border. This 
is since 2001.
    When I first got here a couple of years ago, we only had 
like 35 agents. We've gone up quite a bit. And in that, our 
drug group has actually enhanced. Our drug group, along with 
the DEA, they're out all the time. We have different groups. We 
have a joint Terrorism Task Force Group that works hand in hand 
with the terrorism issue. When a drug call comes, the drug 
group comes and they go out with the DEA and State and locals, 
if necessary. There's not really a mixture and running back and 
forth. We have different groups that focus. If you had a 
singular office with a few agents, you'd have that. We've built 
up. We're working great. I know we've heard this, but it's an 
unbelievable relationship we have in the Detroit area with law 
enforcement, DEA, CBP, HIDTA, everybody gets along great and 
you need that.
    But as far as the drug pursuit faltering, I say it's quite 
the contrary. Like I said, every time we have the opportunity, 
the drug groups goes to go on with a controlled delivery, 
undercover meetings, it doesn't stop at the border. And when a 
terrorism related call comes in, we have joint Terrorism Task 
Force agents that will go out with the FBI, do interviews and 
investigate that and on many days we have many different things 
going on. But the drug group is focused and it has enhanced and 
it will continue to enhance.
    Mr. Souder. Mr. Weeks.
    Mr. Weeks. Mr. Chairman, I can appreciate the concern of 
some of the political realities that you've mentioned, but, you 
know, speaking from a field perspective as a field manager in 
overseeing interdiction efforts at the border, quite frankly I 
don't believe that we would have been able to make as much of 
an impact in the interdiction mode if we didn't have the growth 
that we experienced along the northern border, both at the 
ports of entry and between the ports of entry.
    As you know, the Border Patrol has increased in numbers and 
are working more closely with the folks at the port of entry 
where we have, you know, an active and a very assertive group 
here in Michigan. But with the technology, with the new 
resources that have been given to us, perhaps as a result of 
September 11 has had a byproduct and that is our capabilities 
are much more tighter with regard to interdicting illegal 
drugs, narcotics, precursors, illegal aliens. I mean, we just 
see an uptick in activity based on the growth that we have.
    So I understand the issue of focus, but, you know, we have 
underscored and resonated the message to the officers that, you 
know, it's a priority mission, yes, with regard to terrorism, 
but at the same time we have this broader traditional missions 
that have been brought to bear in terms of many other concerns 
that you've expressed this morning and that certainly we have a 
concern of, you know, going forward. But I believe we're in a 
better position today to make an impact at the border from an 
interdiction standpoint.
    And I might add and join the colleagues that I know that we 
don't have an investigative component in CBP, but we still work 
very closely with ICE and with DEA and other investigative 
agencies that will come to the border and take those 
interdictions that we make and turn them into investigations 
and controlled deliveries. Of course, we then bring that 
information back to the officers because they like to hear the 
conclusion of some of the work that they do at the border too 
and it has been a very successful model.
    Mr. Souder. Anything else?
    Mr. Arvanitis. I would like to add one other thing, 
Congressman. In this community DEA plays a unique role. It has 
an outstanding relationship with my partners at the table, but 
also with the FBI. We participate in having a seat at the table 
and the JTTF strategy. We also are strong proponents of the 
fact that intelligence drives enforcement, OK, and the key to 
that statement is that amongst all these people who sit in this 
community, that we communicate with one another, share the 
intelligence so that we may be able to make a successful impact 
within the community, as well as in Canada and any other 
countries that these cases are taking us to.
    As I said earlier, our relationship with RCMP is 
outstanding. My relationship with my colleagues there is 
outstanding. If there's a case, an issue, it's usually remedied 
by a phone call or by lunch on the Canadian or the U.S. side.
    You know, in all the offices that I've worked at and I have 
not worked in as many offices as Mr. Azzam, former DEA agent 
has worked, I've never seen a relationship amongst Federal and 
State law enforcement entities in a community such as that here 
in Detroit. And that's all I'd like to add.
    Mr. Souder. Well, I thank you all for your testimony today. 
It's been very enlightening as we try to zero in on meth which 
is a diverse topic. I forgot to ask you something. If you can't 
answer this question, that's fine.
    Have you seen meth to the degree you have it here coming 
through, and you mentioned western Michigan, anything from 
Yakima and tri-cities, Washington, Georgia, either of those two 
places?
    Mr. Azzam. Not that I know of.
    Mr. Arvanitis. No, sir.
    Mr. Azzam. Not that I know of.
    Mr. Souder. I'm more skeptical about how we're going to 
make sure that in the short-term, because I believe narcotics 
here can become so interrelated financially with the terrorism 
that we're going to see it, but I think there's a number of 
phenomenons that we have to be very vigilant. I understand that 
we gain and the official position is that we don't need to 
spend more money, we need to spend it more efficiently because 
we're going to get this combined effort that makes it more 
efficient.
    Some of us are a little concerned that what's happening is 
not structural, but personnel driven. In other words, you have 
two former DEA directors in key positions in the Department of 
Homeland Security which will not necessarily be true in the 
future. That we had to force, bluntly put, the Administration 
Office of Narcotics Control, which Roger Mackin has in his 
subpart and that's because the current Speaker headed this 
narcotics committee and is committed to narcotics. It wasn't 
because I introduced the bill because I'm a real powerful guy, 
but somewhat of a mosquito compared to the President of the 
United States.
    That it took the Speaker to basically demand that in the 
bill to make sure that narcotics were even in the Homeland 
Security Bill. That Secretary Ridge was initially resistant. 
But there's an amazing thing that happens and that is the word 
elixir wouldn't fit here, but there's an amazing thing when 
you're trying to accumulate funds is that if the money moves to 
certain issues, then everybody wants to move to that issue. And 
you've seen this in narcotics between 1989 and 1990, you 
couldn't put enough money into narcotics and then when it goes 
and everybody wants to get into the narcotics business and then 
when the money starts to dry up, everybody wants to go where 
the next thing is and terrorism was the thing for a while.
    Then all of a sudden they realized, well, what about 
terrorist attacks, how do we maintain our system, so all of a 
sudden there's mission creep and you get the narcotics thing 
back into it. The Attorney General realizes that, wow, I just 
lost a couple of my big divisions. Maybe narcotics is a bigger 
part of the Attorney General. So you get the Attorney General 
at the table a little more interested in narcotics than he was 
in the very beginning because he lost a big chunk of the 
terrorism part. And what's going to be the relationship long-
term in the cabinet of the power of the Department of Homeland 
Security which is a far bigger agency now and the Attorney 
General, and that I believe that there is a strong consensus 
but not as formed on narcotics.
    There is 100 percent consensus that when we're hit by a 
terrorist attack, that we need to do something. What we do in 
the times in between is that we gradually lull asleep and then 
we get hit. But I'm firmly convinced we're going to get hit 
again. My personal opinion is we've got them sidetracked over 
in Iraq and Afghanistan and we're buying time and meanwhile 
you're getting more lane systems set up, we're getting better 
examination systems, more trained agents, more people up and 
we're going to be better able.
    For example, we're now actually going to follow college 
students who come in and check them to see if they went to 
college. I mean, we had the son of the Chinese CIA director and 
we lost him. And he never showed up to school. We don't know 
whether he's still here or not because we had so many that INS 
couldn't possibly; they get these forms in from the 
universities, they have them stacked up, there was no way we 
had the personnel to sort them through and then at the same 
time the university stopped sending them in because they knew 
INS didn't do it and it's like, man, what's the point of the 
system.
    So we're getting up to speed, but we have zero tolerance 
after September 11. You will not know what hit your agencies. 
I'm just trying to tell you. That's why I'm trying to put up 
some firewalls. We miss another terrorist attack, you will not 
know what hit your agencies.
    My prediction is if it's a big one, half of DEA will be 
diverted. National Parks Service will be diverted because 
everything political will run to that because there's nothing 
more scary than a one-time random hit that could be anybody. 
Rather than the steady kind of thing that you guys do with 
everyday and if we don't have some firewalls to protect our 
system from running to the urgency here, that's why I'm 
interested in hearing it, it's great to hear that in fact it's 
working because in New York City it seems to be working, here 
it seems to be working, but you haven't had the test yet. What 
happens if we get hit.
    Because partly, and this is the dilemma, maybe by all the 
coordination we can avoid getting the hit and that's our thing. 
So I just want to protect the narcotics portion of it. But I 
and some of the others have actually been some of the problem 
in how much we allow the mergers because I'm trying to make 
sure that there's actually money designated for narcotics and 
that Homeland Security doesn't take all the narcotics money and 
Frank Wolf in the appropriations process, has been pretty good 
with this too.
    Anything else?
    Mr. Arvanitis. No, sir. Thank you.
    Mr. Souder. Thank you. The subcommittee stands adjourned.
    [Whereupon, at 11:20 a.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T9654.047

[GRAPHIC] [TIFF OMITTED] T9654.048

[GRAPHIC] [TIFF OMITTED] T9654.049

[GRAPHIC] [TIFF OMITTED] T9654.050

[GRAPHIC] [TIFF OMITTED] T9654.051

[GRAPHIC] [TIFF OMITTED] T9654.052

[GRAPHIC] [TIFF OMITTED] T9654.053

[GRAPHIC] [TIFF OMITTED] T9654.054

[GRAPHIC] [TIFF OMITTED] T9654.055

[GRAPHIC] [TIFF OMITTED] T9654.056

[GRAPHIC] [TIFF OMITTED] T9654.057

[GRAPHIC] [TIFF OMITTED] T9654.058

[GRAPHIC] [TIFF OMITTED] T9654.059

[GRAPHIC] [TIFF OMITTED] T9654.060

[GRAPHIC] [TIFF OMITTED] T9654.061

[GRAPHIC] [TIFF OMITTED] T9654.062

[GRAPHIC] [TIFF OMITTED] T9654.063

[GRAPHIC] [TIFF OMITTED] T9654.064

[GRAPHIC] [TIFF OMITTED] T9654.065

[GRAPHIC] [TIFF OMITTED] T9654.066

[GRAPHIC] [TIFF OMITTED] T9654.067

[GRAPHIC] [TIFF OMITTED] T9654.068

[GRAPHIC] [TIFF OMITTED] T9654.069

[GRAPHIC] [TIFF OMITTED] T9654.070

[GRAPHIC] [TIFF OMITTED] T9654.071

[GRAPHIC] [TIFF OMITTED] T9654.072

[GRAPHIC] [TIFF OMITTED] T9654.073

[GRAPHIC] [TIFF OMITTED] T9654.074

[GRAPHIC] [TIFF OMITTED] T9654.075

[GRAPHIC] [TIFF OMITTED] T9654.076

[GRAPHIC] [TIFF OMITTED] T9654.077

[GRAPHIC] [TIFF OMITTED] T9654.078

                                 <all>

</pre></body></html>
